                                               U.S. Department of the Interior
                                                   Office of Inspector General




                Reporting and Recovery Planning and
               Implementation for Endangered Species




   California Condor              Desert Tortoise                  Alabama Leather Flower
   Photograph Courtesy of USFWS   Photograph Courtesy of US Army   Photograph Courtesy of USFWS




   Florida Panther                Alabama Cave Fish                Atlantic Green Sea Turtle
   Photograph Courtesy of USFWS   Photograph Courtesy of USFWS     Photograph Courtesy of USFWS




                                                  U.S. Fish and Wildlife Service

Audit Report                                                                     April 2003
               United States Department of the Interior

                                 Office of Inspector General
                                       Eastern Region Audits
                                          381 Elden Street
                                             Suite 1100
                                      Herndon, Virginia 20170
                                                                                     April 8, 2003
Memorandum

To:        Director, U.S. Fish and Wildlife Service

From:      William J. Dolan, Jr.
           Regional Audit Manager

Subject:   Final Audit Report on Reporting and Recovery Planning and Implementation for
           Endangered Species, U.S. Fish and Wildlife Service
           (No. 2003-I-0045)

        This report presents the results of our audit of the U.S. Fish and Wildlife Service’s
reporting on its threatened and endangered species program under the Endangered Species Act
and the Government Performance and Results Act. Our audit also identified opportunities for
improving implementation of recovery plans.

        In the March 13, 2003, response to our draft report, the Director of FWS concurred with
the report’s four recommendations. Based on this response, we consider the recommendations to
be resolved. Accordingly, no further response from FWS is needed, and we are referring the
recommendations to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation (see Appendix 3, Status of Audit Recommendations).

        The legislation, as amended, creating the Office of Inspector General, (5 U.S.C. App. 3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented.

        We appreciate the cooperation exhibited by your managers and staff at all locations and
compliment them for being receptive to our suggestions and taking corrective actions to address
the issues brought to their attention during our review. If you have any questions regarding this
report, please contact me at (703) 487-8011.

Attachment

cc: Audit Liaison Officer, U.S. Fish and Wildlife Service
Executive Summary
U.S. Fish and Wildlife Service
Endangered Species Reporting and
Recovery Planning and Implementation

                     As one of several Federal agencies involved in implementing the
                     Endangered Species Act (ESA), the U.S. Fish and Wildlife Service
                     (FWS) is required to report its accomplishments, as well as those
                     of other Federal agencies and the States, in protecting and
                     recovering endangered species to Congress. We found that as of
                     November 2001, FWS reporting could have been more accurate,
                     informative, and timely. We also identified several opportunities
                     for FWS improvements in developing and implementing plans to
                     recover endangered species.

                        Ø The Report to Congress on the Recovery Program for
Reporting to
                          Threatened and Endangered Species, submitted in 1999,
Congress                  contained information on species recovery that was not
                          based on sufficient objective criteria. In addition, the
                          report was submitted late and could have included more
                          information to allow Congress to better measure the
                          progress of recovery efforts.

                        Ø The 1997 annual Federal and State Endangered Species
                          Expenditure Report contained inconsistent information for
                          the two FWS regions we reviewed, and the report was
                          submitted more than a year and a half after its due date.

                        Ø FWS set its performance goal too low and did not
                          accurately measure or report performance accomplishments
                          or sufficiently verify data for endangered species recovery
                          under GPRA.

                        Ø To improve the development and implementation of
Recovery Planning         recovery plans for endangered species, FWS could:
and Implementation        prioritize recovery when allocating staff resources, focus its
                          efforts on those species closest to extinction, track and
                          measure recovery progress, improve communication with
                          its partners, and improve guidance and oversight for the
                          recovery planning process.




                                                     i
                    We made four recommendations, which, if implemented should
Recommendations     improve the quality of the FWS Report to Congress on the
                    Recovery Program for Threatened and Endangered Species and the
                    Federal and State Endangered Species Expenditures Reports.

Agency Response     The FWS concurred with the report’s four recommendations.
and Office of       FWS corrective actions already taken and planned improvements
Inspector General   are discussed in the body of the report and in the FWS response
                    (Appendix 2). Based on the FWS response, we consider the
Reply
                    recommendations resolved but awaiting implementation. A
                    summary of the FSW response and our reply is on page 10 of this
                    report.




                                                   ii
Contents

                                                                                                        Page

           Introduction ............................................................................      1
               Background ........................................................................        1
               Objectives ...........................................................................     1

           Results of Audit ......................................................................        2
              Reporting to Congress ........................................................              2
                  Biennial Recovery Reporting .......................................                     2
                  Annual Expenditures Reporting ...................................                       4
                  GPRA Reporting ..........................................................               5
                  FWS GPRA Improvements ..........................................                        6

           Observations on Recovery Planning and Implementation .                                         6
             Allocating Staff Resources .................................................                 6
             Following Species Prioritization System ...........................                          7
             Tracking and Measuring Recovery Progress .....................                               8
             Coordinating with Partners ................................................                  8
             Improving Recovery Plan Guidance and Oversight ..........                                    8

           Recommendations ..................................................................             9

           Agency Response and Office of
              Inspector General Reply ..................................................                  9

           Appendix 1 ..............................................................................     11
             Scope, Methodology and Prior Audit Coverage ................                                11
                Scope and Methodology ..............................................                     11
                Prior Audit Coverage ...................................................                 12

           Appendix 2 ..............................................................................     13
             Agency Response ...............................................................             13
           Appendix 3 ..............................................................................     23
             Status of Audit Recommendations .....................................                       23

           Abbreviations
           ESA ............................................. Endangered Species Act of 1973
           ECOS ........................ Environmental Conservation Online System
           FWS ............................................... U.S. Fish and Wildlife Service
           GAO ..................................................... General Accounting Office
           GPRA ........................... Government Performance and Results Act
           OIG ...................................................... Office of Inspector General



                                                          iii
Introduction

Background     Congress enacted the Endangered Species Act 1 (ESA) in 1973 to
               protect the nation’s native fish, wildlife, and plant species that are
               in danger of becoming extinct. The ESA requires the U.S. Fish
               and Wildlife Service (FWS) to develop recovery plans for these
               species, report to Congress every two years on the status of both
               plans and species, and conduct a review at least once every five
               years of all listed species to determine whether they should be
               removed from the list or changed in status. Until recently, FWS
               used the biennial report to meet the five-year requirement.
               Additionally, FWS must provide an annual report of the status of
               monies spent on recovery efforts.

               The Government Performance and Results Act 2 (GPRA) requires
               Federal agencies to develop a performance plan with specific
               performance goals and measures and to publish an annual
               performance report comparing the goals with the actual results
               achieved. In its fiscal year (FY) 1999 performance report, FWS
               had one GPRA goal for endangered species (1.2.1) and two
               associated measures related to improving or stabilizing listed
               species and removing species from proposed listing and candidate
               status. Our review focused only on the portion of the goal related
               to improving or stabilizing endangered or threatened species
               populations listed for a decade or more. FWS strategies for
               achieving this goal include overseeing recovery planning and
               implementation activities for listed species, providing protection
               for important habitat, awarding grants to states to assist their
               endangered species conservation efforts, and consulting with
               Federal agencies whose activities may affect listed species.

Objectives     Our objective was to determine whether FWS satisfied its
               reporting requirements under ESA and accomplished its
               performance goals under GPRA. We also reviewed FWS’
               preparation and implementation of recovery plans and made
               observations regarding areas that could be improved. The scope
               and methodology of our review are detailed in the Appendix 1.


               1
                 16 U.S.C. § 1531-1544. Under the law, an “endangered” species is in danger of
               extinction throughout all or a significant portion of its range. A “threatened”
               species is likely to become endangered in the foreseeable future. For the
               purposes of this report, the term “endangered” includes both endangered and
               threatened species.
               2
                 31 U.S.C. § 1115.




                                                     1
Results of Audit
Improvements Needed in Congressional Reporting and
Recovery Planning and Implementation for
Endangered Species

                    We concluded that the informatio n FWS had been reporting to
                    Congress on its endangered species efforts and performance
                    accomplishments was of limited usefulness because it was not
                    accurate, timely, or informative. Also, we noted several
                    opportunities for FWS to better develop and implement plans for
                    the recovery of endangered species.

Reporting to        FWS experienced problems in its biennial and annual reporting
                    because it lacked adequate guidance for preparing, supporting, and
Congress            verifying the information required in the reports. In addition, FWS
                    staff did not have any prior experience in setting goals and targets
                    or collecting, reporting, and verifying performance data, because
                    GPRA reporting was initiated in 1999. During our review,
                    however, FWS managers and staff were receptive to our
                    suggestions and took corrective action to improve GPRA reporting
                    for FY 2000.

Biennial Recovery   The Report to Congress on the Recovery Program for Threatened
                    and Endangered Species (Biennial Recovery Report) provides
Reporting           information on recovery plans and the status of endangered and
                    threatened species. In our review of the Biennial Recovery Report
                    submitted to Congress in 1999 for work performed in fiscal years
                    1995 and 1996, 3 we found that the information provided was
                    unreliable and could have been more informative. In addition, the
                    report was provided to Congress several years after the due date.
                    We identified the following problem areas in ensuring the accuracy
                    of the information in the report to Congress.

                        Ø FWS should provide more detailed guidance for
                          determining the status of species. FWS field staff at one
                          location pointed out that the definitions of status could be
                          interpreted in different ways. For example, one species
                          reported as “stable” has been listed as endangered for more
                          than 30 years. Although the species’ population has

                    3
                     At the time of our review, the recovery reports for fiscal years 1997/1998 and
                    1999/2000 were still in draft and had not yet been submitted to Congress.




                                                           2
         technically remained “stable” over the past decade, the
         population is so small and its habitat so constricted that
         FWS considers the species to be one of the most
         endangered in the world. FWS headquarters staff
         explained that a species in very bad condition, but not
         getting any worse, could still be considered stable.

         We asked FWS staff from at least two field locations and
         headquarters to define the status of species with very low
         population numbers that did not change from year-to-year.
         Biologists at one field office gave at least three different
         interpretations: “stable,” “declining,” and “uncertain.”
         One biologist suggested adding a new category,
         “unchanged,” which better describes the status for this
         category of species. The different interpretations regarding
         this category among FWS staff indicate how the species
         status data could be potentially misleading.

         In a 1995 report, 4 the National Research Council also
         expressed concern over the usefulness of the biennial
         report’s category designations, stating:

             Although these categories are qualitative designations,
             they are not very useful in comparing species trends,
             because no measurable criteria are used to define them.
             . . For example, what percentage change in population
             size over what period constitutes a decline or
             improvement?… If the population size remains constant
             for several years but it is above or below the numbers
             when it was listed, is this considered stable or does it
             constitute a trend in either direction? It is not apparent
             that calling a species stable allows someone to
             distinguish between species that are still at critically
             low levels and those that are more abundant and less at
             risk.

    Ø FWS biologists did not always have sufficient information
      to objectively report species’ recovery data. For example, a
      1999 FWS review of its species population survey data 5 for
      listed species showed that 385 species, or 34 percent, had

4
  National Research Council, 1995. Science and the Endangered Species Act.
Washington, D.C.: National Academy Press. 263 pp.
5
  Population surveys assess the characteristics of species populations to ascertain
their status and establish trends related to their abundance, condition,
distribution, or other characteristics.




                                        3
                       never been surveyed and that 101, or 9 percent, of the
                       completed surveys were more than 10 years old. Further,
                       there was no requirement for written supporting evidence
                       for recovery data included in the report and no process for
                       managers to verify the accuracy of submitted data.

                   Ø The Biennial Recovery Report could include additional
                     information that would be useful to readers in assessing the
                     progress of recovery efforts. For example, inclusion of the
                     dates when FWS placed species on the endangered list and
                     approved final recovery plans for the species would put the
                     reported species status in context for outside readers.

                       According to FWS officials, FWS plans to imp rove its
                       biennial recovery reporting by conducting annual national
                       recovery workshops and developing a summary sheet for
                       each species to substantiate how the status of a species was
                       determined. Also, as with GPRA, FWS is utilizing its
                       internet-based system for collecting data for the Biennial
                       Recovery Report. As discussed in the GPRA section of the
                       report, this should improve the accuracy of the recovery
                       data.

               Expenditures are reported annually to Congress to present all
Annual         reasonably identifiable Federal and State expenditures made to
Expenditures   conserve species on a species-by-species basis. The report
Reporting      provides information to “assess claims that a disproportionate
               effort is being made to conserve a few, highly visible species at the
               expense of numerous, less well-known species that may have
               greater need for protection.” 6 We reviewed information reported
               in the 1997 Federal and State Endangered Species Expenditures
               (Annual Expenditure Report) for two FWS regions 7 and found that
               the reporting was inconsistent. The Southeast Region, for
               example, included species coordinator salaries and contracts and
               grants in its reported expenditures. The Pacific Region, however,
               compiled those same costs for individual species and then
               allocated the remainder of the recovery costs, including other
               salaries and overhead, across all species in the region. This
               ultimately resulted in an inaccurate comparison of annual funds
               expended on different species. The inconsistencies occurred as the
               result of guidance that was overly broad.


               6
                 FWS 1997 Annual Expenditure Report, page 4.
               7
                 We reviewed the Pacific and Southeast Regions, the two largest regions in
               terms of endangered species activities.




                                                      4
                 The Annual Expenditure Report is due on or before January 15 for
                 the preceding fiscal year, which ends September 30. FWS,
                 however, submitted the 1997 Annual Expenditure Report in
                 August 1999, more than one and a half years beyond the due date.
                 The Annual Expenditure Reports for 1998 and 1999 due January
                 15, 1999, and 2000 respectively, have not yet been submitted.
                 FWS officials stated that obtaining data from Federal and state
                 partners can take up to one year, which affects their timeliness in
                 reporting to Congress. As a result, Congress lacks current and
                 useful financial information on expenditures for endangered
                 species.

                 According to FWS officials, improvements to expenditure
                 reporting include providing electronic templates of all species to
                 reporting entities in order to improve consistency in reporting.
                 Planned improvements include preparing and providing additional
                 guidance, specific to regional reporting and contracting, to develop
                 a web-based data entry system.

                 Our review disclosed that FWS set its performance goal for
GPRA Reporting
                 endangered species recovery too low for fiscal year 1999 and did
                 not accurately measure or report performance accomplishments or
                 sufficiently verify and validate performance data, as follows:

                    Ø The performance goal was understated in that it was set
                      lower than what had already been achieved by FWS. FWS
                      established performance goal 1.2 to stabilize or improve the
                      population status of at least 63 of the 499 species listed as
                      endangered for 10 or more years. FWS stated in the 1999
                      report that it had exceeded the goal and stabilized or
                      improved 99 species listed as endangered for 10 or more
                      years. We determined, however, from the 1998 Draft
                      Biennial Recovery Report, that 257 species with the same
                      criteria had been stabilized or improved. The data was not
                      useful for assessing FWS performance because the GPRA
                      results reported were not accurate.

                    Ø The process for collecting GPRA data was not effective
                      because FWS attempted to use workload data for its GPRA
                      reporting. This was a problem because the workload
                      measure included all endangered species and the GPRA
                      measure should have included only those listed 10 years or
                      more. In addition, verification of GPRA data for
                      performance goal 1.2 was limited because FWS
                      Headquarters staff requested only total numbers from the
                      FWS regional offices, rather than the actual names of the



                                                  5
                           species listed 10 or more years that were stable or had
                           improved. We obtained the names of the species reported
                           as stable or improved in 1999 from FWS regional offices
                           and identified 231 species in these categories. FWS
                           reported 99 species were stable or had improved. Thus the
                           accomplishment was significantly under reported.

FWS GPRA           FWS took several corrective actions as the result of our review. It
                   corrected fiscal year 1999 data for performance goal 1.2 in its FY
Improvements       2000 and FY 2001 GPRA reports. FWS also improved its
                   instructions for collecting fiscal year 2000 performance data. The
                   instructions are more detailed and include examples to assist
                   regional and field office staff in understanding the nature and use
                   of information being collected. In addition, FWS improved its data
                   collection and verification processes. Specifically, it expedited
                   completion of the recovery program element of its new data
                   collection system, the Environmental Conservation Online System
                   (ECOS) 8 and included a field in ECOS to require confirmation by
                   a regional official that reported data has been verified.

                   We realize that species recovery is a difficult and slow process, but
Observations on    we believe that FWS could be more successful in developing and
Recovery           implementing recovery plans by (1) prioritizing recovery when
Planning and       allocating staff resources, (2) focusing its efforts on those species
                   closest to extinction, (3) tracking and measuring recovery progress,
Implementation     (4) improving communication with FWS partners, and (5)
                   improving guidance and oversight for the recovery planning
                   process. We did a significant amount of survey work in the area of
                   recovery planning and implementation. However, because of the
                   complexities of endangered species recovery, additional work
                   would have been necessary to fully develop the causes of the
                   conditions we identified. Additionally, we were aware that the
                   General Accounting Office (GAO) had several endangered species
                   reviews underway or in planning, and that the Society for
                   Conservation Biology was performing an in-depth study of FWS
                   recovery plans. As a result, we elected to forego additional
                   verification work but present our observations for FWS
                   consideration.

Allocating Staff   FWS could improve the implementation of its recovery plans by
                   prioritizing the resources assigned to its endangered species
Resources          recovery program. Although recovery planning and

                   8
                     The ECOS is an internet-based data collection program that allows for faster
                   data collection and incorporates control checks to improve accuracy of data
                   reporting.




                                                          6
                    implementation comprised over half of the endangered species
                    budget in FY 2000, FWS biologists with recovery responsibilities
                    often performed other duties, such as consulting with other
                    agencies under Section 7 9 of the ESA, negotiating habitat
                    conservation plans, listing species, or researching litigation issues.
                    Several of the FWS staff and managers we spoke to agreed with
                    the assessment of one field office manager that recovery duties
                    sometimes seemed to be “optional” compared to other endangered
                    species functions. FWS should consider re-examining its policies
                    and procedures to better focus its resources on those activities that
                    will result in the most significant benefit to species recovery.

                    FWS informed us that the development of revised recovery
                    planning guidance will better utilize limited recovery resources and
                    encourage partnerships with a wide array of agencies,
                    organizations, and individuals.

                    The number of listed species and thus the recovery workload is
Following Species   increasing at a faster pace than endangered species funding. As a
Prioritization      result, FWS has recognized that it must prioritize its workload and
System              focus its efforts on those species declining the fastest or closest to
                    extinction. However, FWS did not always follow its own
                    prioritization system, most importantly its initial prioritization of
                    “endangered” versus “threatened.” By definition, endangered
                    species have a higher risk of extinction, which suggests they
                    should receive more attention and funding than threatened species.
                    However, six of the ten FWS species with the highest Federal
                    expenditures were listed as threatened. 10

                    According to FWS officials, each listed species is assigned priority
                    numbers in accordance with recovery priority policy. Actual
                    implementation of recovery actions depends on cost, long-term
                    commitments, opportunity for action, and changing urgencies;
                    therefore, actual spending of recovery funds may not correspond
                    exactly with assigned priority numbers. In addition, FWS has
                    asked the Office of Management and Budget for a $2 million
                    budget increase in fiscal year 2004 for species that could go extinct
                    in the next five years, and those that could be delisted if the last
                    remaining recovery tasks are completed.


                    9
                      Section 7 requires other Federal agencies to consult with FWS to ensure that
                    the actions these agencies authorize, fund, or carry out is not likely to jeopardize
                    listed species.
                    10
                       FWS Federal and State Endangered Species Annual Expenditure Report to
                    1Congress, FY 1997.




                                                             7
                    Only one of the six FWS field offices we visited had a system to
Tracking and        identify and measure its progress in implementing recovery plans.
Measuring           The initial tracking system could be as simple as adding a current
Recovery Progress   status column to the recovery plan implementation schedules. A
                    tracking system wo uld give managers access to individual species
                    recovery progress and overall efforts, help FWS respond more
                    quickly to congressional requests and litigation issues, encourage
                    staff to create and maintain a relationship with their partners, and
                    provide information to biologists new to species recovery efforts
                    following a staff turnover. Prior Office of Inspector General (OIG)
                    and GAO reports 11 recommended development of a tracking
                    system. FWS officia ls agreed that a tracking system is needed, and
                    plan to develop a national tracking system maintained through its
                    online data base system.

                    FWS could improve communication, coordination, and leadership
Coordinating        in its species recovery efforts among FWS offices and government
with Partners       and non-profit partners. FWS credits its partners with providing
                    much of the “on-the- ground” work and funding to implement
                    recovery plans. Despite the importance of its partners, however,
                    FWS often had limited communication with them, sometimes only
                    at annual meetings. Overall, the more than 130 partners we
                    contacted were supportive of FWS efforts. Nearly one-third of the
                    partners, however, indicated they would like FWS to provide either
                    more communication, coordination, or leadership in endangered
                    species recovery efforts. Improving partner communication and
                    coordination could create and facilitate additional opportunities for
                    advancing species recovery and delisting.

                    According to FWS officials, FWS is addressing improved
                    communication and coordination with its partners and stakeholders
                    at a national recovery workshop and, in its draft interim, revised
                    recovery planning guidance. FWS also has training courses to
                    improve its staff abilities in seeking and utilizing partners available
                    at its National Conservation Training Center.

Improving           FWS did not always comply with the ESA statutory requirements
                    for recovery plans. 12 Of the 35 plans we reviewed, the most
Recovery Plan       crucial missing element was objective measurable criteria. This
Guidance and        lack of criteria has resulted in criticism that FWS is constantly
Oversight
                    11
                      The OIG and GAO reports are summarized in the Appendix.
                    12
                      The ESA and FWS Recovery Plan Guidance require recovery plans to include
                    description of site-specific management actions as may be necessary, objective
                    measurable criteria, and estimates of the time required and the cost to carry out
                    those measures needed to achieve the plans’ goals.




                                                           8
                  “moving the goal posts” related to actions needed to recover and
                  delist endangered species. The Society for Conservation Biology
                  has recently completed a study on improving endangered species
                  recovery plans in collaboration with FWS. The study’s report 13
                  includes a number of recommendations related to recovery
                  planning and implementation, which could be used by FWS to
                  improve the effectiveness of its endangered species recovery plans
                  and program. According to FWS officials, they are developing
                  revised recovery guidance that will include many of the study’s
                  recommendations.


Recommendations   We recommend that the Director, FWS:

                       1. Perform periodic reviews of reported data to ensure the
                          accuracy of information reported to Congress.

                       2. Improve guidance to regions and field offices on reporting
                          species expenditures and assessing and reporting species
                          status to ensure that the data provided to Congress are
                          consistent and supported by sufficient evidence.

                       3. Include additional species data in the Biennial Recovery
                          Report to improve its usefulness in measuring the progress
                          of recovery efforts.

                       4. Provide Annual Expenditure Reports and Biennial
                          Recovery Reports to Congress in a timelier manner.


Agency Response   In the March 13, 2003 response to the draft report (Appendix 2),
                  the Acting FWS Director generally agreed with the finding and
and Office of     recommendations. The response also included detailed comments
Inspector         and additional information on the endangered species recovery
General Reply     program. We considered and included this information, as
                  appropriate, in preparing the final report.

                  The Director’s response is sufficient to consider the four
                  recommendations resolved, but not imple mented (see Appendix 3).
                  A response to this report is not required. The four
                  recommendations will be referred to the Assistant Secretary for
                  Policy, Management and Budget for tracking of implementation.


                  13
                    Endangered Species Recovery and the SCB Study: A U.S. Fish and Wildlife
                  Service Perspective, June 2002.




                                                      9
Appendix 1
Scope, Methodology, and Prior Audit Coverage

                 The scope of our audit included a review of selected threatened
Scope and        and endangered species program activities undertaken by FWS
Methodology      Pacific and Southeast Regions, the two largest regions in terms of
                 endangered species, from October 1, 1994, through December 31,
                 2000. In the fall of 2001, we obtained updated species and
                 program information. We conducted fieldwork at the following
                 FWS offices.

                                Office                      Location
                         Headquarters Offices      Arlington, Virginia
                                                   Washington, D.C.
                         Regional Offices          Atlanta, Georgia
                                                   Portland, Oregon
                         Field Offices             Ventura, California
                                                   Sacramento, California
                                                   Jacksonville, Florida
                                                   Jackson, Mississippi
                                                   Reno, Nevada
                                                   Las Vegas, Nevada
                                                   Portland, Oregon
                         National Wildlife         Titusville, Florida
                         Refuges                   Gautier, Mississippi

                 We reviewed the ESA and its amendments, FWS regulations and
                 guidance related to endangered species, prior audit and program
                 reports, and a sample of species recovery plans. We also
                 interviewed FWS officials and employees and government and
                 non-profit partners.

                 Our audit was conducted in accordance with “Government
                 Auditing Standards,” issued by the Comptroller General of the
                 United States. Accordingly, we included such tests of records and
                 other auditing procedures as were considered necessary to
                 accomplish our objectives.

                 As part of our review, we reviewed the Department of the
                 Interior’s Report on Accountability for Fiscal Year 1999, which
                 included information required by the Federal Manager’s Financial
                 Integrity Act, and FWS FY 1999 annual assurance statement on
                 management controls. Based on that review, we determined that
                 none of the weaknesses reported for the Department or FWS were
                 within the objectives and scope of our review. We also performed


                                                 10
              a limited review of internal controls applicable to biennial
              performance and annual expenditures data reporting and identified
              deficiencies discussed in the report. Our recommendations, if
              implemented, should improve internal controls in these areas.

Prior Audit   The following OIG and GAO audit reports were relevant to our
              review.
Coverage
                 Ø OIG Audit Report No. 90-98, September 1990, “The
                   Endangered Species Program, U.S. Fish and Wildlife
                   Service.” The report recommended that FWS update
                   species information; develop a national plan to prioritize
                   and survey all candidate species on which conclusive
                   knowledge is lacking; consider and pursue other less costly
                   alternatives to officially listing endangered and threatened
                   species; determine and identify the number of listed species
                   for which there are not recovery plans; and establish, on a
                   national priority basis, a systematic approach to developing
                   recovery plans for all species that will benefit from such a
                   plan. Also a national system to track the status of recovery
                   plan implementation should be developed; develop listing
                   and recovery priority systems which can more cost
                   effectively conserve the nation’s animal and plant resources
                   and fully inform the Congress of the current and
                   prospective status of the endangered species program and
                   request Congressional cooperation in reassessing the
                   program in light of goals to be accomplished and
                   availability of resources. As part of informing Congress,
                   FWS should give consideration to and develop proposals
                   for less costly alternatives in achieving program objectives.

                 Ø GAO Audit Report No. RCED-89-5, December 1988,
                   “Endangered Species Management Improvements Could
                   Enhance Recovery Program.” The report recommended
                   that FWS follow its existing priority systems or officially
                   amend them, and establish a centralized system on all
                   domestic species status to assist in gauging the recovery
                   program success.




                                             11
Appendix 2
Agency Response




                  12
Appendix 3
Status of Audit Recommendations


       Recommendation       Status                    Action Required

         1 through 4    Resolved; not        No further response to the Office of
                        implemented          Inspector General is necessary. The
                                             recommendations will be referred to
                                             the Assistant Secretary for Policy,
                                             Management and Budget for
                                             tracking of implementation.




                                        13
                             How to Report
                Fraud, Waste, Abuse, and Mismanagement
Fraud, waste, and abuse in Government are the concern of everyone – Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:

             Mail:        U.S. Department of the Interior
                          Office of Inspector General
                          Mail Stop 5341-MIB
                          1849 C Street, NW
                          Washington, DC 20240

             Phone:       24-Hour Toll Free          800-424-5081
                          Washington Metro Area      202-208-5300
                          Hearing Impaired           202-208-2420
                          Fax                        202-208-6081
                          Caribbean Region           340-774-8300
                          Northern Pacific Region    671-647-6051

             Internet:    www.oig.doi.gov/hotline_form.html




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240
                                    www.doi.gov
                                   www.oig.doi.gov
